HHS/OIG-Audit--"Review of Cash Assistance Payments Under the Refugee Resettlement Program in Florida, (A-04-96-00104)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Cash Assistance Payments Under the Refugee Resettlement Program in Florida," (A-04-96-00104)
April 21, 1998
Complete
Text of Report is available in PDF format (985 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report estimates that the Florida Department of Children and Families (DCF) overpaid refugees $1.9 million
in cash assistance after the refugees' period of eligibility for such assistance had expired. The overpayments occurred
because the DCF did not have edits in its computerized payment system to identify and automatically terminate assistance
to refugees whose eligibility period had ended. In addition to a financial adjustment for $1.9 million, we recommended
that DCF implement edits in its computer system to preclude this problem.